BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Emily Mullins, hereby certify that 40 bound
copies and 1 unbound copy of the foregoing Brief for
Amicus Curiae Halliburton Company in Support of
Respondents in 20-794, Servotronics, Inc. v. Rolls-Royce
PLC and The Boeing Company, was sent via Next Day
Service to the U.S. Supreme Court, and via Next Day
and e-mail service to the following parties listed below,
this 28th day of June, 2021:
Stephen R. Stegich III
Condon & Forsyth
7 Times Square, 18th Floor
New York, NY 10036
(917) 940-0272
sstegich@condonlaw.com
Counsel for Petitioner
Lisa Schiavo Blatt
Williams & Connolly LLP
725 12th Street, NW
Washington, DC 20005
(202) 434-5050
lblatt@wc.com
Counsel for Respondents Rolls-Royce PLC

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

• (800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

Scott Payne Martin
Perkins Coie LLP
1201 Third Avenue, Suite 4900
Seattle, WA 98101
(206) 359-3600
smartin@perkinscoie .com
Counsel for Respondents The Boeing Company
Ekaterina Hristova Apostolova
Freshfields Bruckhaus Deringer Singapore Pte Ltd
10 Collyer Quay 42-01
Ocean Financial Centre
Singapore, XX 049315
(658) 183-0632
kate.apostolova@freshfields.com
Counsel for The International Court of Arbitration of
the International Chamber of Commerce
Timothy Paul Harkness
Freshfields Bruckhaus Deringer US LLP
601 Lexington Avenue
31st Floor
New York, NY 10022
(212) 230-4619
timothy.harkness@freshfields.com
Counsel for Professor George A. Bermann

Michael Hugh McGinley
Dechert LLP
1900 K Street, NW
Washington, DC 20006
(202) 261-3378
michael.mcginley@dechert.com

Counsel for Professor Yanbai Andrea Wang
John B. Pinney
Graydon Head & Ritchey LLP
312 Walnut Street Suite 1800
Cincinnati, OH 45202
(513) 629-2730
jpinney@graydon.com

Counsel for International Institute for Conflict
Prevention & Resolution in Support of Petitioner
Andrew J. Tuck
Alston and Bird LLP
1201 West Peachtree Street
Atlanta, GA 30309
(404) 881-7134
andy.tuck@alston.com

Counsel for Atlanta International Arbitration Society
Henry Sabath Weisburg
Shearman and Sterling LLP
599 Lexington Avenue
New York, NY 10022
(212) 848-4000
HWeisburg@Shearman.com

Counsel for Federal Arbitration Inc. (FEDARB)

Jeffrey S. Bucholtz
Counsel of Record
Elizabeth Silbert
Christine M. Carletta
King & Spalding LLP
1700 Pennsylvania Ave. NW
Washington, DC 20006
(202) 737-0500
jbucholtz@kslaw.com
esilbert@kslaw.com
ccarletta@kslaw.com
Counsel for Halliburton Company

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on June 28, 2021.

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

~

G,

fu fd-11

Notary Public
[seal]

--Att0ffl8'/ at Law
Nolary Public, State of Ohio
My Commission Has No Expiration
Date. Section 147.03 O.R.C.

